NO:
IN THE SUPREME COURT OF THE UNITED STATES

DOUGLAS JACKSON # 748757
Petitioner,
v
LEAH BEREAN et al;
Respondent.

On Petition for Writ of Certiorari to the
United States Court of Appeals for the Sixth Circuit

PROOF OF SERVICE
I, DOUGLAS JACKSON # 748757, the undersigned Petitioner in the above entitled case,
day of February 2021 1 have served copies of the above
do hereby declare that on this
Petition for Writ of Certiorari, Motion to Proceed In forma pauperis, Affidavit in support of
motion, Appendix, and this proof of service upon the following parties:
£L
^

OFFICE OF THE CLERK
SUPREME COURT OF THE UNITED STATES
Washington D.C. 20543

Lansmg Michig
by placing same in sealed envelopes, properly addressed, and handing them over to prison officials
at the Baraga Correctional Facility, to be placed in the prison’s outgoing mail via the Michigan
Department of Correction's mandated expedited legal mailing system, with first class postage
prepaid and affixed. I declare under the penalty that the foregoing is true and correct.
S/ CbOUCuvs JACKSONS
DOUGLAS JACKSON # 748757
Baraga Correctional Facility
13924 WadagaRd.
Baraga Michigan 49908

